<html>
<title> - SIXTY YEARS OF NASA LEADERSHIP IN HUMAN SPACE EXPLORATION: PAST, PRESENT, AND FUTURE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                     SIXTY YEARS OF NASA LEADERSHIP
                      IN HUMAN SPACE EXPLORATION:
                       PAST, PRESENT, AND FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2018

                               __________

                           Serial No. 115-74

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-515 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f097809fb09385838498959c80de939f9dde">[email&#160;protected]</a>                    
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
JIM BANKS, Indiana                   MARK TAKANO, California
ANDY BIGGS, Arizona                  COLLEEN HANABUSA, Hawaii
ROGER W. MARSHALL, Kansas            CHARLIE CRIST, Florida
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         AMI BERA, California, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
RANDY HULTGREN, Illinois             DONALD S. BEYER, JR., Virginia
BILL POSEY, Florida                  MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DANIEL LIPINSKI, Illinois
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         CHARLIE CRIST, Florida
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  EDDIE BERNICE JOHNSON, Texas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas
                            C O N T E N T S

                           September 26, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Ami Bera, Minority Ranking Member, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    12
    Written Statement............................................    13

Statement by Representative Lamar Smith, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    14
    Written Statement............................................    16

                               Witnesses:

Mr. William Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Mission Directorate, NASA
    Oral Statement...............................................    19
    Written Statement............................................    22

Mr. Mark Geyer, Director, Johnson Space Center, NASA
    Oral Statement...............................................    31
    Written Statement............................................    34

Ms. Jody Singer, Director, Marshall Space Flight Center, NASA
    Oral Statement...............................................    35
    Written Statement............................................    37

Mr. Robert Cabana, Director, John F. Kennedy Space Center, NASA
    Oral Statement...............................................    39
    Written Statement............................................    41

Discussion.......................................................    42


             Appendix I: Answers to Post-Hearing Questions

Mr. William Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Mission Directorate, NASA...........    58

Mr. Mark Geyer, Director, Johnson Space Center, NASA.............    73

Ms. Jody Singer, Director, Marshall Space Flight Center, NASA....    77

Mr. Robert Cabana, Director, John F. Kennedy Space Center, NASA..    84

            Appendix II: Additional Material for the Record

Document submitted by NASA.......................................    92

 
                     SIXTY YEARS OF NASA LEADERSHIP
                      IN HUMAN SPACE EXPLORATION:
                       PAST, PRESENT, AND FUTURE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 2:11 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Babin. Good afternoon. The Subcommittee on Space 
will now come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing titled, ``60 Years of NASA 
Leadership in Human Space Exploration: Past, Present, and 
Future.'' I'll recognize myself for 5 minutes for an opening 
statement.
    The 36th Congressional District of Texas is home to the 
Johnson Space Center, a source of pride for all Texans. 
Representing my constituents and JSC has been one of the 
proudest and most exciting experiences during my Congressional 
tenure. I am honored to have the privilege of serving as the 
Chairman of the Space House Subcommittee as well. This role has 
shown me just how vital NASA is to our Nation.
    Sixty years of outstanding achievements by NASA have served 
to lay the foundation for even more incredible feats over the 
next 60 years. Every single one of these remarkable 
accomplishments would not have occurred had it not been for the 
amazing individuals who have made up the NASA team over the 
years. The unique capabilities and experience of the workforce 
at each of NASA's centers, three of which are represented here 
today, were very critical in helping NASA accomplish such 
audacious goals. To accomplish remarkable feats in the future, 
our NASA centers, workforce, and industry must be healthy and 
vibrant.
    One of the first bills signed into law this Congressional 
session was the 2017 NASA Transition Authorization Act, which 
directed NASA to provide a Human Exploration Roadmap. Although 
that report arrived a little later than originally planned, it 
is finally here.
    The new National Space Exploration Campaign laid out in the 
report not only charts a bold course for American human space 
exploration in the years and decades to come, it also provides 
an opportunity for JSC to continue serving a central role in 
exploration, as the expertise in Houston is critical to taking 
our astronauts beyond low-Earth orbit. As I said in my July 25 
column in the Houston Chronicle, the next time any American 
sets foot on the Moon or Mars, I want to again ensure that the 
first word from the surface is ``Houston.'' To meet these new 
goals, we need to build upon and cultivate the invaluable and 
unique capabilities of each center and to utilize their 
irreplaceable workforce, which is a competitive asset for our 
Nation.
    Following the passage of the 2017 NASA authorization, I 
introduced H.R. 5503, the 2018 NASA Authorization Act. This 
bill reaffirms JSC's leadership role in human spaceflight 
operations and consolidates NASA's systems and integration work 
on space suits, providing greater efficiencies, preserving the 
industrial base, and keeping JSC's engineering and space 
operations capabilities ``front and center.''
    Just this morning, I introduced the Leading Human 
Spaceflight Act to provide further Congressional direction to 
NASA. This bill reaffirms JSC's leadership role as the home of 
American human spaceflight, and this legislation also 
recognizes that, based on their historical role and extensive 
expertise and capabilities, Johnson Space Center is the logical 
center to serve a lead role in program management, systems 
engineering, program integration, and operations for NASA's 
human space exploration program, particularly those outlined in 
the Human Space Exploration Campaign.
    As I've said before, the ISS is the crown jewel of 
America's human spaceflight program. Leadership in LEO returns 
tremendous economic benefits of space exploration to Earth. My 
bill promotes policy that will lead to a permanent and 
continuous U.S. human presence in LEO and authorizes NASA to 
operate the ISS until 2030, or until we have demonstrated a 
sustainable lower-cost alternative. At the same time, NASA is 
directed to start work with the private sector in developing 
the commercial capabilities to meet America's future needs in 
low-Earth orbit.
    And while I've talked at length about JSC this afternoon, 
space exploration is a team effort, and I am very, very proud 
of the work done at all of our NASA centers. We must ensure 
that we learn from the past to prevent the detrimental gaps in 
prior transitions and protect our most important asset--the 
people--the irreplaceable workforce that have brought us this 
far and will take us into the next 60 years of space 
exploration.
    [The prepared statement of Chairman Babin follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. And speaking of the invaluable workforce, I 
understand that NASA's Flight Director class of 2018 is in the 
audience today. I just shook hands with all of them, I believe. 
These new Flight Directors have begun their training on flight 
control and vehicle systems, operational leadership, and 
training and risk management, and they aim to complete their 
training in 2019 and join an elite group of less than 100 
Flight Directors who will lead America in our future human 
spaceflight missions. We welcome you today and thank you for 
your service.
    I want to thank the witnesses. I'm sorry I was running 
late. I didn't get a chance to come in the room in there and 
get to shake your hands. We had to vote, and I rushed in as 
quickly as I could, but I want to thank you for--each and every 
one of you for being here, and I look forward to your 
testimony.
    Let me introduce--what do we have? Oh, I now recognize the 
Ranking Member. I don't have that page. I'm sorry. Sorry about 
that----
    Mr. Bera. Don't worry.
    Chairman Babin. --Ranking Member. I now recognize the 
Ranking Member, the gentleman from California, a good friend, 
for an opening statement.
    Mr. Bera. Thank you, Mr. Chairman, and thank you for 
calling this hearing on 60 years of NASA leadership in human 
space exploration, past, present, and future. I've said this 
often in this Committee when I think about the past, having 
grown up in Downey, California, which was the home of Rockwell 
International at that time and in the midst of the Apollo 
program, just the excitement of the late '60s and early '70s. 
In many ways that led to my interest in science. And while I 
didn't become a NASA astronaut, I did go to medical school and 
become a doctor.
    And I think for a generation of kids, it led to kids going 
into engineering, kids going into the sciences and really 
captured our imagination. So, you know, the past and when we 
think about NASA, it is one of the iconic brands that has 
accomplished a lot, but it also in a sense of patriotism, it's 
one of the things that we're most proud about in the last 50 
years.
    It's also--when I--we think about the present, it's not 
that often we get four senior-level NASA Administrators and the 
folks that are really on the forefront here, so thank you to 
the witnesses for being here and the work that you do and the 
pride that you give us as Americans.
    When we think about the future and we think about our NASA 
centers--and I think that's something that the Chairman and I 
and the full committee have thought about. We really have to 
start giving NASA and our whole space program a roadmap, a 
strategic plan. We can't change that strategic plan from 
Administration to Administration, particularly if we're setting 
a goal--and my colleague Mr. Perlmutter from Colorado is not 
here, but he'd say well, the goal is to get to Mars by 2033. 
Well, if we are setting that goal, again, we've got to give 
NASA that roadmap and give the men and women and our commercial 
industries that roadmap so we can move forward with that. That 
was one of the things that made us very successful in the lunar 
mission was it didn't matter if it was a Democratic 
Administration or Republican Administration. We set a goal, we 
set our minds to it, we put our ingenuity into it, and we got 
there. And I think that's certainly my hope is Congress working 
with the Administration does start to lay out what that roadmap 
looks like.
    With that I'd be interested as we start hearing from the 
witnesses within our centers, how can the centers be a 
cornerstone of that sustainability and how we move forward? In 
addition, what are the challenges that we might face as we look 
at those future missions, whether those are an aging workforce, 
if there's a skills gap, et cetera, and what are some things 
that we should be focusing in on as we look at the question of 
the future, and where should we focus as Congress?
    And then what are some of the barriers in terms of funding 
and predictability, et cetera, because, again, if the goal is 
to go to Mars by 2033, we don't know how we're going to get 
there. We didn't know how we were going to get to the Moon, but 
let's set that challenge and then let's put our shoulders into 
it and our ingenuity into it and then let's go meet that 
challenge.
    So, again, thank all of you for your service and, you know, 
making this country proud. And again, I look forward to the 
testimony. Thank you.
    [The prepared statement of Mr. Bera follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Babin. Thank you. I now recognize the Ranking 
Member of the full Committee for a statement, the gentlewoman 
from Texas.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Good afternoon and welcome to all of our NASA witnesses. 
It's really good to see all of you here from NASA.
    In concert with our international, academic, and commercial 
partners, NASA and the Nation are closer than we have been in 
decades to launching the world's largest heavy-lift rocket, 
sending crew beyond the Earth's neighborhood, launching humans 
to the International Space Station from domestic soil, and 
developing a shared vision on how to get humans to the surface 
of Mars. This is an exciting time in our nation's space 
history, and NASA and its workforce are planning an important 
role in bringing these dreams to reality.
    So I'd like to take a moment to thank all of you from the 
NASA Centers and the Directors of the workforce that you 
represent, and the work that you do every day to achieve 
America's goal.
    Last Friday, NASA transmitted the National Space 
Exploration Campaign report in response to direction in the 
NASA Transition Authorization Act of 2017. I'm pleased that we 
have finally received this report, and I look forward, Mr. 
Chairman, to a vigorous discussion of the report's contents. 
The report was to provide the necessary plans to enable a human 
mission to Mars, a national goal enshrined in law.
    I also look forward to continuing our discussion of the 
proposed International Space Station transition. If Congress 
decides to end direct financial support for the Space Station 
at some point during the next decade, we will need a well-
thought-out transition in place. A repeat of the negative 
experience that followed the end of the Shuttle program would 
not be in the best interest, and nor would it be consistent 
with the goal of a sustainable exploration program.
    And, Mr. Chairman, before closing, I want to say that it is 
important to recognize that today's space program is not the 
government program that existed 60 years ago. The expanding 
number of space actors, both government and non-government, 
provide increased capabilities that NASA can leverage in 
meeting our space exploration goals. But it is equally 
important to recognize that, as NASA is doing with the 
International Space Station, we need NASA to provide the 
leadership required for a successful long-term collaborative 
partnership to send humans to Mars.
    I thank you, Mr. Chairman, for having this hearing, and I 
hope that we'll follow a sensible course. Thank you.
    [The prepared statement of Ms. Johnson follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Babin. Yes, ma'am. Thank you.
    I now recognize the Chairman of the full Committee, the 
gentleman from Texas, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    The recently released National Space Exploration Campaign 
report shows we are truly in an exciting time for our Nation 
and NASA.
    Our witnesses today include the head of NASA's human 
spaceflight programs and the Directors of three NASA centers 
who carry out major human spaceflight responsibilities. 
Together, they are responsible for implementing and carrying 
out much of this campaign, and we are fortunate to have them 
with us.
    With clear Congressional direction, strong White House 
leadership, and NASA's tremendous expertise, we have all the 
resources available to make significant progress in human space 
exploration. I'm pleased that NASA has delivered a Human 
Exploration Roadmap, as required by the 2017 NASA Transition 
Authorization Act. The National Space Exploration Campaign lays 
out a bold and achievable plan for human exploration that 
includes low-Earth orbit, the Moon, Mars, and beyond. The 
report also specifies key critical decision points for future 
human space exploration. By laying out an open architecture 
with key decision points, off ramps, and deadlines, the 
campaign demonstrates resilience, constancy, and 
sustainability. We cannot always predict which ambitious 
projects will succeed or what future missions may discover, but 
this campaign builds in opportunities to capitalize on 
successes while mitigating misfortunes.
    I believe this report also clarifies the Administration's 
policy on the International Space Station and its future. 
Clearly, NASA and the Administration do not intend to abandon 
America's presence in low-Earth orbit. This campaign lays out 
some of the first details about how the United States can 
preserve its leadership in low-Earth orbit, while extending its 
reach outward to the Moon, Mars, and beyond.
    At the same time, I note that Subcommittee Chairman Babin 
has introduced the Leading Human Spaceflight Act, which builds 
on the ISS Transition Report and the ISS policy laid out in the 
National Space Exploration Campaign report and provides 
forward-leaning Congressional leadership as we move into the 
next phase of low-Earth orbit utilization, and I want to thank 
the Chairman of the Subcommittee for introducing that 
legislation.
    I am sure that Mr. Gerstenmaier will agree that all of 
NASA's centers play an important and vital role in our Nation's 
space program. Each center is an incredible technological asset 
and engine of economic development. The goals and tasks laid 
out in the National Space Exploration Campaign will provide 
many opportunities for each center to bring their unique 
capabilities to bear. Three of those centers will be 
represented here today to tell us how they intend to contribute 
to this campaign and what it means for their workforces and 
their communities.
    As we near the end of this Congress, I cannot tell you how 
pleased I am with our progress in space over the last six 
years. We are on the verge of one of the most ambitious eras in 
space that this country has ever seen. I hope the testimony we 
hear today will shed additional light on these exciting times.
    Thank you, Mr. Chairman, and I'll yield back.
    [The prepared statement of Chairman Smith follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Babin. Thank you. I appreciate you, Mr. Chairman.
    Now, I'd like to recognize the gentleman from Florida for 
an opening statement, Mr. Posey.
    Mr. Posey. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    This year, we celebrate the 60th anniversary of the 
National Aeronautics and Space Administration, the world's 
premier and most respected space exploration agency and the 
only federal agency tasked with space exploration. We've come a 
long way since the inspiring words of President Kennedy, who 
motivated this country to make and keep a promise to put a man 
on the Moon and return him safely to Earth by the end of the 
1960s, not because it was easy but because it was hard.
    If I were to say, ``Kitty Hawk,'' everyone would 
immediately think of the Wright brothers and the first flight 
of man. If you say, ``Cape Canaveral'' or ``Kennedy Space 
Center,'' most people, in my generation certainly, would say in 
return, ``Mercury, Gemini, Apollo, Space Shuttle.'' Our nation 
is so very proud of the men and women at our space center who 
continue the noble work of our space program. They know and we 
know that space exploration is demanding work and that they 
will meet any of the challenges, however bold that they may be 
in the future.
    As other members have mentioned earlier today, Members of 
Congress have been asking NASA for a detailed roadmap to Mars 
for several years now, and I've advanced a bipartisan 
legislative proposal to return to the Moon and to go onward to 
Mars from there. Today, we have bold leadership. The 
President's directive, NASA, and the National Space Council are 
all preparing the way. America must not fall behind. I look 
forward to hearing our witnesses and learning more about the 
national space exploration strategy.
    Thank you, Mr. Chairman.
    Chairman Babin. Yes, sir. Thank you.
    And now, I'd like to introduce our witnesses today. Mr. 
Bill Gerstenmaier, our first witness today, is the Associate 
Administrator of the Human Exploration and Operations Mission 
Directorate at NASA. He develops the strategic direction for 
all aspects of NASA's human exploration of space and provides 
programmatic direction for the continued operation and the 
utilization of our International Space Station. Mr. 
Gerstenmaier began his NASA career in 1977, performing 
aeronautical research, and he's managed NASA's human 
spaceflight portfolio since 2011. He received a Bachelor of 
Science in aeronautical engineering from Purdue University and 
a Master of Science in mechanical engineering from the 
University of Toledo. Thank you for being here, Mr. 
Gerstenmaier.
    Our second witness today is Mr. Mark Geyer, Director of 
NASA's Johnson Space Center in Houston, Texas, located in my 
district. In his role, Mr. Geyer leads a workforce of about 
10,000 civil servants and contractor employees. He began his 
NASA career in 1990 and later joined the International Space 
Station program in 1994. He has served in a variety of roles 
there, including Chair of the Space Station Mission Management 
Team. Mr. Geyer earned both his Bachelor of Science and Master 
of Science degrees in aeronautical and astronautical 
engineering from Purdue University in Indiana. Thank you for 
being here.
    Ms. Jody Singer, our third witness today, Director of 
NASA's Marshall Space Flight Center in Huntsville, Alabama. 
Appointed in September of 2018 as the first woman to ever run 
Marshall. Ms. Singer manages one of NASA's largest field 
installations with nearly 6,000 civil service and contractor 
employees and an annual budget of $2.8 billion. During her 32-
year career at NASA, Ms. Singer has held leadership roles in 
human spaceflight, technology, and science programs and 
projects. Ms. Singer earned a bachelor's degree in industrial 
engineering from the University of Alabama. Welcome. Your 
football team is just doing fantastic this year.
    And last but not least is Mr. Bob Cabana, our final witness 
today, Director of NASA's John F. Kennedy Space Center, or KSC, 
in Florida. Mr. Cabana manages all NASA facilities and 
activities at the spaceport, including the team of civil 
service and contractor employees who operate and support 
numerous space programs and projects. Mr. Cabana was selected 
as an astronaut candidate in 1985, and he served in a number of 
leadership positions at the Lyndon B. Johnson Space Center 
Astronaut Office. He has logged 38 days in space. Mr. Cabana 
graduated from the U.S. Naval Academy in 1971 with a bachelor's 
degree in mathematics. I welcome you as well, Mr. Cabana.
    I now recognize Mr. Gerstenmaier for 5 minutes to present 
his testimony.

             TESTIMONY OF MR. WILLIAM GERSTENMAIER,

                    ASSOCIATE ADMINISTRATOR,

                     HUMAN EXPLORATION AND

              OPERATIONS MISSION DIRECTORATE, NASA

    Mr. Gerstenmaier. Thank you very much. It's an honor to be 
here with this panel and also to represent the men and women of 
NASA.
    Stopping to reflect on the past, present, and future of 
human exploration at NASA on this 60th anniversary is important 
and worthy of serious discussion. As we look back on the past, 
we must be extremely careful. As we look back, we carry a bias 
in the way we--as we know the outcome of the events that 
transpired. We also tend to link decisions and outcomes in ways 
that may not be correct. We have a natural hindsight bias and 
have a tendency to remember only the good things or the 
tragedies, and we miss the subtle things that were critical to 
success. We miss understanding the difficult decisions that 
were made with little data and appear perfect--and appear as 
perfect decisions in hindsight. We also discount the role of 
luck in some of our outcomes.
    I can tell you from my own experience of having written 
many design requirements and flight rules in the past and now 
hearing the new generation of engineers and designers discuss 
the logic for these flight rules and design criteria, their 
perception today for the requirements and flight rules does not 
match the logic or the environment in which these requirements 
were written. We should learn from the past but recognize that 
our view of the past is flawed and try not to develop a 
strategy based solely on our perception of the past. There are 
also new processes and techniques that did not exist in the 
past. We need to look for new approaches and develop new ways 
of designing systems and building hardware.
    The capabilities of others outside of NASA is radically 
different than in the past. Both private industry and countries 
have the ability to contribute in huge ways that were not 
possible in the past.
    And looking forward to the future, it's difficult to 
predict the exact plan or capability that we need. Space Policy 
Directive-1 provides an appropriate solid base for the future. 
I'll read from the policy. It says, ``to lead an innovative and 
sustainable program of exploration with commercial and 
international partners, to enable human expansion across the 
solar system, and to bring back to Earth new knowledge and 
opportunities. Beginning with missions beyond low-Earth orbit, 
the United States will lead the return of humans to the Moon 
for long-term exploration and utilization, followed by human 
missions to Mars and other destinations.''
    This policy is great in that it does not over-specify the 
how but describes key considerations, that is, an innovative 
and sustainable program with commercial and international 
partners and to enable human expansion across the solar system. 
The policy even covers the why, to bring back to Earth new 
knowledge and opportunities. This is a good policy to build off 
of for the future.
    Rather than speculate on the future, let's spend a few 
moments reflecting on the present. Today, we sit with more 
hardware in development for human spaceflight than at any time 
in our past. We have two commercial crew transportation systems 
nearing completion and ready for--ready to fly crew to the ISS 
in the next year: Boeing CST-100 and SpaceX Dragon. We have an 
Orion capsule ready for Exploration Mission 1 and the European 
Service Module for Orion that has completed assembly in 
Germany. The service module will shift to the Kennedy Space 
Center for integration with Orion in late October and will 
undergo 400 days of integrated testing at KSC in Plum Brook in 
Ohio prior to flight.
    The flight engines and solid rocket motors and liquid 
engines are ready for flight. The Space Launch System flight 
hardware is undergoing manufacturing and is planned to ship to 
Stennis next June for testing. In the next nine months, there 
will be two un-crewed flight tests to the ISS, a pad abort test 
for Boeing, a high-altitude abort test for SpaceX, a pad abort 
test for the Orion vehicle. Further, the Orion capsule pressure 
shell for the first human crewed mission around the Moon, EM-2, 
is at KSC beginning integration. This is an amazing time. 
Outside of NASA, we should also see the private sector 
suborbital flights with Virgin Galactic and Blue Origin next 
year.
    Lastly, we've had crews in space continuously for 18 years. 
The research being done by the crews on ISS is amazing, and the 
technology development will allow divisions of Space Policy 
Directive-1 to be accomplished. We are likely never to see 
another space facility as amazing as the International Space 
Station in our lifetimes. These may be the good old days for 
the future generation.
    We in human spaceflight are often accused of being too 
optimistic by review teams and inspectors. I like to think that 
we are appropriately optimistic. We must dream big to lead. The 
challenge of the lunar landing was huge and required 
appropriate optimism. We can do these big things, but there 
will always be risks, risks to the lives of our astronauts, 
risks to our careers and legacies, risks to schedules and 
budgets. We can mitigate some of these obvious risks, but these 
risks cannot be truly managed or eliminated. We need to openly 
discuss these risks and make sure that they are understood. 
These risks are part of enabling human expansion across the 
solar system. Appropriate optimism is required to be a leader 
and to create the next 60 years of amazing accomplishments.
    I look forward to a good hearing. Thank you.
    [The prepared statement of Mr. Gerstenmaier follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you very much for that testimony.
    Now, I recognize Mr. Geyer for 5 minutes to present his 
testimony.

                  TESTIMONY OF MR. MARK GEYER,

              DIRECTOR, JOHNSON SPACE CENTER, NASA

    Mr. Geyer. Chairman Babin, Ranking Member Bera, thank you, 
and Members of the Subcommittee, thank you for the opportunity 
to be here today to discuss the ISS and human exploration.
    So NASA has an exciting and challenging future, and the 
Johnson Space Center stands ready to support the Human 
Exploration and Operations Mission Directorate and work in 
partnerships with our other NASA human spaceflight centers to 
enable that future.
    NASA's JSC was established in 1961, and from the Gemini, 
Apollo, and Space Shuttle missions to today's International 
Space Station and Orion programs, the center has led the 
development and operation of historic human spaceflight 
programs. JSC's famed mission control center or MCC has been 
the operational hub of every American human space mission since 
Gemini IV. The MCC manages all activity on board the space 
station and will play a pivotal role in commercial crew vehicle 
flights flying astronauts to and from the ISS in the near 
future. The MCC will direct the flights of Orion when it 
launches on top of the Space Launch System that takes humans 
beyond low-Earth orbit for the first time since 1972.
    JSC is also home to the NASA's Astronaut Corps and is 
responsible for training space explorers from the United States 
and our space station partner nations. As such, it is the 
principal training site for the ISS expedition crews.
    JSC also leads NASA's flight-related scientific and medical 
research efforts and strives to make revolutionary discoveries 
and advances to benefit not only our ability to live and work 
in space but all of humankind.
    Technologies developed originally for spaceflight have 
already found a wide range of applications in medicine, energy, 
transportation, agriculture, communications, and electronics. 
JSC leads the development of the Orion spacecraft and provides 
space craft expertise in support of KSC's Commercial Crew 
Program. JSC will lead a high-altitude test flight of Orion 
abort system in April of 2019, which will showcase the power 
and complexity of this critical system used to enhance crew 
safety during ascent. These efforts continue JSC's legacy as 
human spacecraft development experts.
    The Johnson Space Center also has unique expertise in 
extravehicular activity, suit development, and operations. At 
JSC we manage EVA execution training integration, as well as 
development for the suits, systems, and support equipment. The 
United States has performed a total of 252 EVAs, totaling over 
1,500 hours, including over 1,000 hours of EVAs during the 
assembly and operation of the ISS program.
    The Johnson Space Center is a world leader in complex 
programmatic and system integration. For example, for more than 
20 years we have--JSC has managed the integration, assembly, 
and operation of the ISS. The space station is a multinational 
microgravity laboratory, continuously occupied since November 
of 2000. The ISS has hosted 232 individuals from 18 countries. 
An international crew of six people live and work while 
traveling at a speed of five miles per second orbiting the 
Earth every 90 minutes. Microgravity, along with many other 
beneficial environmental conditions, provide a unique research 
environment to support bioscience, physical science, remote-
sensing, and technology development projects. Over 2,400 
investigations by over 100 countries have been performed in 
space station history, and this number increases every week.
    JSC has also developed and implemented cutting-edge 
partnering strategies. The Commercial Orbital Transportation 
Services program, COTS, and the cargo resupply contract 
strategy enabled two companies to develop launch vehicles and 
spacecraft through public-private partnerships, which now 
resupply critical cargo to the ISS. This initiative has shown 
the power and the challenges of the strategy which will be 
important--an important part of any future sustainable 
exploration plan.
    Looking forward, the White House Space Policy Directive-1 
calls for the NASA Administrator to lead and innovative and 
sustainable program of exploration and commercial with--with 
commercial and international partners to enable human expansion 
across the solar system and bring back to Earth new knowledge 
and opportunities. JSC has demonstrated the capability to unite 
commercial and international partners to complete bold 
missions.
    By continuing the use of the ISS as a low-Earth orbit 
laboratory to buy down human risk factors presented by space 
travel and to develop the technologies that will enable humans 
to journey to the Moon and beyond, NASA has already established 
the foundation necessary to expand the frontier of human space 
exploration. Partnerships with commercial international 
partners have already been established to build, operate, and 
maintain the ISS and have established a template to follow for 
human expansion across the solar system. Knowledge gained on 
the space station has already benefited humans on Earth and 
points to the future promise of new knowledge and opportunities 
from human space exploration.
    NASA and JSC look forward to the future of human space 
exploration. Commercial companies are currently launching cargo 
to the space station from Virginia and Florida. In the very 
near future, the tempo of Americans spaceflight will increase 
exponentially as commercial companies prepare to launch 
American astronauts to the ISS from the United States.
    On August 3, 2018, at a ceremony at JSC we named the 
astronaut crew of brave men and women who will fly on our first 
commercial missions. This milestone was another reminder of 
JSC's central role in human space exploration.
    As I mentioned before, the Orion and SLS will soon be 
flying humans beyond low-Earth orbit. These systems enable 
access to the lunar region and will be used in the near term to 
assemble and utilize elements of a human outpost around the 
Moon.
    JSC stands ready to apply its unique capabilities and 
complex program management, partnerships, system integration, 
operations, spacecraft design, and human health and performance 
in partnership with our fellow NASA centers, commercial 
partners, international partners as NASA fulfills the 
initiatives set forward by the National Space Council and the 
White House. Thank you very much.
    [The prepared statement of Mr. Geyer follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    

Chairman Babin. Yes, sir. Thank you for your testimony.
    I now recognize Ms. Singer for 5 minutes to present her 
testimony.

                 TESTIMONY OF MS. JODY SINGER,

          DIRECTOR, MARSHALL SPACE FLIGHT CENTER, NASA

    Ms. Singer. Thank you, Chairman Babin and Members of the 
Subcommittee. Thank you for this opportunity to address this 
Committee and represent Marshall Space Flight Center where I 
began my 32-year NASA career.
    I was recently honored to be named Center Director by the 
Administrator Jim Bridenstine. It is a privilege to testify 
before you with my colleagues here today.
    At Marshall we make human deep space exploration possible. 
As you know, one of our flagship programs is the Space Launch 
System. The Space Launch System is unmatched in its 
capabilities and will deliver human-rated spacecraft, habitats, 
along with unprecedented science missions to the Moon, to Mars, 
and beyond. Our work on SLS builds on nearly 60 years of 
leadership in human space exploration.
    At Marshall, we have a storied history of expertise in 
developing and integrating large, complex, human-rated systems 
on behalf of the agency and our country. It started with 
Apollo, then expanded to include Skylab, Hubble, Spacelab, 
Shuttle, Chandra, and eventually the International Space 
Station, or ISS.
    Marshall has been essential to the creation and utilization 
of the International Space Station, beginning with the 
integration of the modules. Node 1 was built in Huntsville with 
Marshall supporting the build and delivery of nodes 2 and 3. 
The U.S. laboratory was built in the Saturn V test facility in 
Huntsville, Alabama. The Marshall team designed and developed 
the Environmental Control and Life-Support System called the 
ECLSS, which provides water and oxygen for the crew. We're 
using what we know about these essential and complex systems so 
that we can better enable long-term human exploration into deep 
space.
    For more than 17 years we have supported the ISS with our 
24/7 operations, 365-days-a-year management of science 
operations. We have hosted more than 2,300 research 
investigations from researchers in 103 countries to date.
    We also support the Commercial Crew Program, which will 
allow us to launch American astronauts from American soil to 
the ISS for the first time since the Shuttle program ended in 
2011. In addition to SLS, ISS, and other technology development 
activities, we are excited to be working with commercial 
partners and other NASA centers on a number of robotic and 
human lander development programs, which will return our nation 
to the Moon.
    We have a long and storied role in our Nation's human 
spaceflight program, and we couldn't do it alone. At NASA, we 
are driven by partnerships and constantly reminded of the old 
saying, if you want to go fast, go alone. If you want to go 
far, we go together. Our partnerships with industry, with 
academia, and with other government entities are instrumental 
to our success. As we look ahead to what it will take to expand 
human presence in our solar system, we look forward to continue 
to provide our expertise in large integrated human exploration 
systems as we partner to develop landers, habitats, transit 
systems, and integrated exploration systems as we partner to 
develop as we go forward. All of these will be essential 
elements for deep space human exploration.
    We are preparing for our return to the Moon and to travel 
on to Mars as we continue to help the United States lead the 
world in exploration and discovery of the unknown. I am excited 
to be a part of our Nation's space program, and I'm honored to 
be part of a team of experienced and passionate professionals 
who are ready to take on any and all challenges that arise as 
we aim to push human presence deeper into space than we ever 
have before.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Ms. Singer follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Ms. Singer.
    I now recognize Mr. Cabana for his 5 minutes of testimony.

                TESTIMONY OF MR. ROBERT CABANA,

          DIRECTOR, JOHN F. KENNEDY SPACE CENTER, NASA

    Mr. Cabana. Thank you for the opportunity to appear today 
to discuss KSC's contributions to 60 years of NASA leadership 
in human space exploration, past, present, and future.
    NASA's John F. Kennedy Space Center is the United States' 
preeminent multiuser spaceport for government and commercial 
access to space. KSC's rich history dates back to 1962 when it 
was first established as a NASA launch operations center, and 
from those first steps on the Moon through 30 years of the 
Space Shuttle, culminating in the completion of the 
International Space Station to the myriad of NASA science 
missions, expanding our knowledge of the universe and home 
planet, KSC has led the way in innovative, efficient, and cost-
effective spacecraft processing, launch, and recovery.
    Today, we continue to lead. Since the last Shuttle mission 
in July of 2011, the center has transformed to enable 
commercial operations, better utilizing our assets and 
strengthening America's space program. By early next year it is 
our goal to once again be flying U.S. astronauts to space on an 
American rocket from U.S. soil, a direct result of establishing 
KSC as a multiuser spaceport.
    In 2017, the United States led the world in launches for 
the first time since 2003. Of the 29 U.S. launches last year, 
12 were from the Kennedy Space Center. I'd like to recognize 
the great partnership we have with the 45th Space Wing and the 
FAA that helped to enable that.
    In addition to the many ground operations going on at KSC, 
commercial operations going on at KSC, the Exploration Ground 
Systems program is preparing the center to once again enable us 
to explore beyond low-Earth orbit with NASA's Space Launch 
System and the Orion spacecraft. Recently, the mobile launcher 
rolled from the park site out to pad 39B for a fit check and is 
now in high bay 3 of the vehicle assembly building, undergoing 
verification and validation testing. With this move, we are 
essentially complete with the construction of all the 
facilities necessary to process and launch the vehicle for 
Exploration Mission 1. To support future exploration missions, 
we're in the process of procuring a second mobile launcher that 
accommodates the exploration upper stage Block 1B version of 
the SLS and eliminates a three-year gap between missions.
    As we prepare for the launch of SLS and Orion and a return 
to the Moon, NASA will soon begin work on the Gateway, a 
flexible outpost in cislunar space that will provide access to 
anywhere on the Moon and enable sustained exploration of the 
lunar surface, expanding our knowledge and proving technologies 
needed for eventual trips to Mars and beyond.
    The Gateway, a logistics effort, will involve procuring 
commercial services via fixed-price contracts for the delivery 
of cargo to support science and exploration missions staged 
from the Gateway, including human exploration. KSC is 
positioned to provide its core area of expertise: commercial 
acquisition, contract management, payload processing, ground 
processing, and launch integration to support Gateway and 
ensure its success.
    Five years ago, the KSC team set out to restore our 
prominence as the place where astronauts launch to space. With 
NASA's desire to stimulate commercial markets, coupled with the 
availability of historic space processing and launch assets, we 
set an ambitious goal to be the home of five human spaceflight 
providers. Today, through commercial crew, exploration ground 
systems, and our commercial partners, we're supporting the 
development of four human spaceflight providers, and we haven't 
given up on the fifth.
    We're also launching the agency's science missions through 
the Launch Services Program. With five of six planned missions 
already successfully completed this year, our multiuser 
spaceport is prospering like never before. Truly, the sky is 
not the limit at KSC.
    Finally, I'd like to recognize the upcoming 20th 
anniversary of the first assembly mission of the ISS. On 
December 4, 1998, I had the privilege of commanding Endeavour 
on that first mission and activating the space station for the 
first time and entering it. As we noted in the first log entry 
of the ISS, ``From small beginnings, great things come,'' and 
the ISS has more than exceeded its expectation as a world-class 
microgravity lab, a superb engineering testbed, as a 
partnership--international partnership model for the future and 
as a destination that made commercial crew and cargo programs a 
reality.
    Mr. Chairman and members of the committee, I'd like to 
thank you for your time and attention this afternoon, but more 
importantly, I'd like to thank you for your support of 
America's space program, and I look forward to your questions. 
Thank you.
    [The prepared statement of Mr. Cabana follows:]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you very much, Mr. Cabana.
    Now, the Chair recognizes himself for 5 minutes for 
questions.
    This is going to be for everyone. Considering the current 
discussion about ISS transition, what is NASA doing to prevent 
another detrimental capability gap as we have experienced in 
the past, most recently with the retirement of the Space 
Shuttle? And I'll start with you, Mr. Gerstenmaier.
    Mr. Gerstenmaier. You've seen our transition plan for ISS, 
and we treat that very seriously. And we're not just doing a 
plan, but we issued some study contracts to 12 companies, and 
those companies are going to give us business plans and market 
analysis for how they could potentially use the space station 
or they could use low-Earth orbit to provide some capability 
for us in the future. So we're going to see what industry is 
interested in, what they can provide, and therefore, we'll 
build a smooth transition so we don't have an abrupt end of one 
program and then start another program. We need to make sure 
there's a continuity of human spaceflight where there--we 
continue this human presence in low-Earth orbit, and NASA 
becomes one of many users of low-Earth orbit.
    Chairman Babin. Thank you very much. Mr. Geyer?
    Mr. Geyer. Yes, I think if we described the incredible 
things the space station is providing today and I think a great 
conversation about we really don't want the gap in low-Earth 
orbit, so as Bill described where we're putting together a plan 
that looks logically at how we might build other capabilities 
so NASA is one of many users and put together a well-thought-
through plan.
    I think also the key is, as we go into exploration further 
into the solar system, how do we take the lessons from ISS into 
those other endeavors like the Gateway and so forth and keep 
those partnerships strong. All those are very important parts 
to consider.
    Chairman Babin. All right. Thank you. And, Ms. Singer?
    Ms. Singer. Yes, sir. I looked as far as the exploration 
program and how we're going, that that is setting out a roadmap 
that will help us. I went through the Shuttle, and I went 
through the--after flying out the Shuttle in 2011 and saw the 
gap. I think one of the things that we are looking forward to 
is learning off of lessons learned, and also going forward, one 
of the things that we're doing is there's a lot on our plate. 
The future is very bright. We have to deliver on our missions 
today and make sure that we invest in our people and making 
sure that we form partnerships that will make us a sustainable 
program. So I think all of that focus will keep us strong and 
going.
    Chairman Babin. Excellent. Mr. Cabana?
    Mr. Cabana. Thank you. Mr. Gerstenmaier laid out the plan 
well, and I think it's critical that we have a follow-on for 
the International Space Station, that we do have a plan for 
low-Earth orbit. Even as we explore beyond our home planet, I 
believe that there is a place for operations in Earth orbit, 
and it's critical that we have a destination for our commercial 
partners, both crew and cargo, to have a viable commercial base 
there, so we're working hard to ensure through our partnerships 
that we can commercialize the ISS and that we have a future 
beyond it in low-Earth orbit.
    Chairman Babin. Thank you very much. And then for Mr. 
Gerstenmaier, during the early development phases of a program, 
program management from headquarters is understandable. 
However, once acquisitions begin, do you believe that program 
management should be done from the centers where the workforce 
and expertise exist to perform these roles for NASA?
    Mr. Gerstenmaier. Yes, definitely. And we're in the process 
of laying that out and figuring out the right time to 
transition activities from kind of putting together the 
strategy at headquarters and then passing it down to the 
centers for actual implementation and doing the day-to-day 
management of the project.
    Chairman Babin. Right.
    Mr. Gerstenmaier. But I think it's important in the 
beginning headquarters kind of sets those bigger-picture goals 
of where the partnerships ought to be, new ways of doing 
business, et cetera. Then we could hand that off, and the 
execution is much better done at the centers.
    Chairman Babin. Absolutely. Thank you. And then for Mr. 
Geyer, in your new role as JSC Center Director, how are you 
leveraging the decades of experience your team has serving as 
the lead center for human spaceflight program management, 
systems engineering, program integration, and operations?
    Mr. Geyer. So what we do, first of all, is we participate 
with the studies that are done on the future and the 
exploration campaign is a good example of that. We provide 
inputs and expertise as the strategy is being put together, 
again, bringing what we've seen and what we've learned in the 
past, and then we support the conversations of--as we decide to 
roll those programs out, making sure that JSC is poised and has 
the folks ready to do those jobs.
    Chairman Babin. Thank you. And what is JSC doing to 
encourage commercial partnerships with the center?
    Mr. Geyer. So a couple things, of course, we have the big 
contracts that are obvious, the commercial cargo is a great 
example of a technique we've used to buy services, and we've 
seen what that's done to actually create the capability. We 
participate with Kennedy on the Commercial Crew Program, which 
now has taken the next step in actually flying our crews, so 
it's a bigger, more challenging task. And then we also have--
even within the center on tasks that are infrastructure things 
like training crews, we put into our contracts the capability 
for those contractors to actually bring in other customers to 
reduce our fixed cost and help us do our job for less money.
    Chairman Babin. I know I'm out of time, but I just want to 
get something in. What is the current workforce level, both 
civil servant and contractor, directly supporting ISS at your 
center?
    Mr. Geyer. I'll--we'll get back to you on that exact 
number.
    Chairman Babin. Okay. And then do you have a rough estimate 
on the numbers at the other centers supporting ISS, or maybe I 
should ask the other two real quick, Ms. Singer and Mr. Cabana?
    Ms. Singer. I don't have the exact number in front of me. 
I'll have to take that for the record----
    Chairman Babin. Okay.
    Ms. Singer. --and get back to you.
    Chairman Babin. Okay.
    Mr. Cabana. I'll take it for the record also, Mr. 
Chairman----
    Chairman Babin. All right, great.
    Mr. Cabana. --and get you the exact number.
    Chairman Babin. Okay. Well, I'll yield back. Thank you very 
much.
    Now, the gentlewoman from Texas, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Well, Ms. Singer and Mr. Cabana and Mr. Geyer, the Space 
Exploration Campaign is anticipated to involve partnerships 
with industry, academia, and international entities. What is 
the most important role of NASA and the centers in a multi-
partner Space Exploration Campaign?
    Mr. Geyer. Well, I think, first of all, it's NASA's job to 
provide the vision and the strategy and then to set the 
acquisition plan, exactly how are we going to accomplish these 
goals and how do we decide how to partner, who's going to do 
what jobs. That's a big part that NASA provides.
    Mr. Cabana. Yes, I think I'd say it even more simply than 
that. NASA leads. We provide the direction, we coordinate, we 
ensure that we work together as one team, and we set the course 
with our requirements and how we go about doing it.
    Ms. Singer. And I would add to both of their statements and 
say a critical part of it is NASA working together. We work 
together, centers to centers, working with the agency, as well 
as with our partners, to make sure we deliver on what the 
Nation needs, and that includes delivering on our commitments, 
executing our missions, making sure that we have the right 
infrastructure and people in place with the right training, as 
well as forward thinking to make sure we have a readiness. 
We're ready to be able to execute the missions put in front of 
us. And then obviously cultivating partnerships, having 
partners, and the ability to be more flexible, agile, and 
having the ability to execute is critical.
    Ms. Johnson. Thank you very much, Mr. Chairman. I yield 
back.
    Chairman Babin. Yes, ma'am. Thank you very much.
    I now recognize the gentleman from Oklahoma, Mr. Lucas.
    Mr. Lucas. Thank you, Mr. Chairman.
    And, Mr. Gerstenmaier, my colleagues have commented on the 
early space program, the Apollo program, that went on in my 
youth of course that instilled in a whole generation of 
Americans a different perspective for looking at the stars and 
drove people into the field of math and science. And of course 
we have a renewed interest now with all the spectacular things 
going on in space exploration in this country.
    Could you expand for a moment on how the National Space 
Exploration Campaign could potentially have a similar effect on 
our culture as a society regarding an interest in and 
fascination with space and science in general?
    Mr. Gerstenmaier. I think what's interesting is there's a 
couple pieces. First of all, we shouldn't discount the space 
station and what it can do today to inspire the next 
generation. I'm often amazed when I go talk to college students 
how much they're impressed by Station, and they relate to me 
things that I would think would only be attributable back to 
Apollo in the other days. So I think we need to celebrate 
what's going on with Station and what our crews are doing there 
every day. You know, continually operating a station is not 
easy and moving forward.
    As we talk about things like the Gateway around the Moon, 
what's intriguing about that is we're building a piece of 
infrastructure in space that can be used as a reusable piece by 
multiple folks, so what's exciting about the new vision is it's 
not a single mission. It's not a single ``achieve this.'' It 
has actually put in place an open architecture that can be used 
by the private sector, used by international partners. It can 
enable reusable spacecraft.
    So on the--in the Apollo program, we had a service module, 
a command module that was used once and thrown away. The 
Gateway can be that reusable service command module that's sits 
in space to be a destination for any spacecraft going to space 
with open standards. They can dock there. The lunar landing 
module will be reusable. And the neat thing is all this orbital 
mechanics, electric propulsion are all new technologies, new 
analysis, and we need the students today to start looking at 
new, creative ways to utilize space. So I think if we can put 
the challenge out there in a way every person in the United 
States, every person in the world can figure out a way that 
they can contribute to this space program that is now open, and 
it's the right role for government to put that piece of first 
infrastructure in place that just enables the world to innovate 
and be creative in utilizing space.
    Mr. Lucas. Oh, absolutely. And speaking of Gateway, could 
you visit with us for just a moment in whatever regard you can 
about the--and I know it's early in the process--the 
conversations that are going on with the potential commercial 
partners? I assume there is interest out there. I assume they 
are warming up and cranking up the designs to utilize the 
opportunities. You're getting that kind of feedback, correct?
    Mr. Gerstenmaier. Yes, definitely. With domestic providers 
we have several companies working on next-step broad-agency-
announcement activities where there's actually modules 
available at some of the centers that you can go see where 
we're starting to look at what the U.S. habitation module will 
look like on Gateway. So that activity is moving forward. We're 
soliciting input from many of the companies, and we're also 
receiving a lot of interest from the science community. We've 
done one workshop in Colorado. The interest in doing science 
around the Moon and using the unique orbit of the Gateway was 
really amazing. We've also--there was a European activity also 
looking at science on Gateway, so, so far, there's been very 
strong support from industry. We're involving them in many ways 
to see how they can contribute in ways that help build this 
piece of infrastructure that is multiuse and multi-decades that 
can be used.
    Mr. Lucas. Absolutely. And speaking of that, I think I'd 
like to turn now to all three of the Center Directors. Can you 
visit for just a moment about the unique capacities that each 
of your particular centers have in regards to NASA's future and 
for that matter the National Space Exploration Campaign, the 
unique qualities that each center brings, just a little bit if 
you wouldn't mind? That's not a trick question, I promise.
    Mr. Cabana. So, absolutely, sir. I think, you know, you 
look at the Kennedy Space Center, this is where we process the 
vehicles. This is where we do the launch integration. This is 
where we launch to space. And there's no other place like it in 
the United States or in the world in my opinion. I think we do 
it right, and I look forward to processing and launching the 
vehicles that are going to be supporting Gateway.
    Mr. Lucas. Thank you.
    Ms. Singer. From a Marshall Space Flight Center standpoint, 
I look at Marshall's heritage and expertise that we have. We 
have development and integration experience in large and 
complex human systems, have been demonstrated in Apollo, 
Shuttle, and SLS. We have--deep space transportation systems 
will be critical for ascent and descent. We look to advanced 
manufacturing and additive manufacturing not only to be able to 
build our components but to build in space. Also the 
lifesupport systems that we see, we partner with other centers 
to make sure that we have the life-support system for survival, 
and also when I look about large science instruments, being 
able to understand the science and the world around us.
    So I see as our participation from a center perspective and 
as a group we all have a lot to offer in robotic and human 
exploration, and I think spaceflight in our future is very 
bright. And I think we'll be looking as to whether we'll be 
traveling to and through or living and working in space or 
understanding our world. I think we all can be significant 
contributors.
    Mr. Geyer. Yes, great. And so, yes, we're excited about the 
exploration campaign, and I think there's parts of that that 
we've mentioned. Certainly the astronauts are at JSC. We do 
operations, flight operations. We do human health and 
performance, learning how the body behaves in space, spacecraft 
design, and then really integrating complex not just 
engineering but also programmatic relationships like space 
station has both commercial--and ISS will be a big part I think 
about the sustainability of the new plan. So we're excited to 
work with our partners and get started on this new endeavor.
    Mr. Lucas. Thank you, Mr. Chairman. And I just note to our 
panelists that those of us on this side of the table are 
constantly reminded we have to deliver our message, what, 17 
times to get it to stick, so repetitiveness is the nature of 
bringing the general population along with us.
    I yield back, Mr. Chairman.
    Chairman Babin. Well said.
    Mr. Perlmutter. It takes us 21.
    Chairman Babin. Thank you, Mr. Perlmutter.
    I now recognize the gentleman from Pennsylvania, Mr. Lamb.
    Mr. Lamb. Thank you, Mr. Chairman.
    Mr. Gerstenmaier, what is the basis for the statement in 
the report that this strategy does not require significant 
funding increases or does not assume them? Could you talk a 
little bit about that?
    Mr. Gerstenmaier. Sure. What we're doing is we're trying to 
leverage the capability that already exists in the commercial 
industry. So, for example, the first element of Gateway is the 
power propulsion element. It will provide communications and 
electric propulsion for the Gateway spacecraft around the Moon.
    We noticed that the commercial satellite buses that are in 
existence today flying around with commercial satellites are 
very similar to what we need for this application, so we're 
going to leverage off of what's available in the commercial 
satellite industry, offer them the chance to add high-powered 
solar rays and high-powered electric propulsion to their 
spacecraft, and we think they'll be very interested in that 
activity. So therefore, we don't need to do a complete new 
redesign from the beginning. We can take advantage of the 
spacecraft that's flying on orbit today with 15 years of 
reliability and demonstrated performance, and that allows us to 
keep the cost fairly low, at least for that first acquisition.
    We're looking at the same thing for all the elements. We're 
looking to see what's available from the private sector, what 
we can do ourselves, where we can contribute to--and we spread 
the development out across several years such that we don't 
need a huge influx of funding on an annual basis to make this 
activity happen.
    Mr. Lamb. Okay. And are these mostly American commercial 
partners that you're talking about?
    Mr. Gerstenmaier. Yes.
    Mr. Lamb. Okay.
    Mr. Gerstenmaier. And again, you can see--I think in the 
report it talks about conceptually what we think it's 
international as well. If we want to be a leader, we're 
bringing in some international partners into the Gateway as 
well, and we've distributed some of the components. We chose 
areas that we think are uniquely important to us that we want 
to have in the United States where we want to continue to keep 
U.S. leadership, so that was kind of strategically defined how 
we picked our partners and put our partnerships together.
    Mr. Lamb. And does the lack of a need for significant 
funding increases, does that hold true only up to the landing 
of humans on the Moon or would it include, you know, further 
missions like the mission to Mars or do you know?
    Mr. Gerstenmaier. Again, I think we've kind of laid out the 
first framework to that point. We also assume reusability, so, 
for example, the--like I described earlier, the lunar landing 
module, we see that the--there's an ascent module that would be 
reusable and would not have to be replaced. The Gateway, as I 
described earlier, is a reusable piece. We think that helps 
keep costs down. It depends how many unique pieces we need 
going forward. It also depends how much interest there is in 
low-Earth orbit. We think we need to keep some presence in low-
Earth orbit and will the commercial sector be able to generate 
revenues so NASA is one of many customers. So there's lots of 
what-ifs as we go out there.
    I think we do need more than a flatline budget. We need 
some increase each year at least consistent with inflation, 
maybe slightly above, but it's that moderate increase, and 
that's what that statement tries to capture in the report.
    Mr. Lamb. Thank you. Can we talk a little bit about the use 
of private lunar landers specifically? And this could be for 
Mr. Gerstenmaier or anyone on the panel who's familiar with it. 
But there's a company, for example, in Pittsburgh near where 
I'm from called Astrobotic that's planning on launching its 
first mission in 2020. This to me seems like a success story 
along the lines of what you're talking about where we are 
having private commercial companies do Moon missions for the 
first time really in history. Is that--on that specific point 
of having them do lunar landers, is that a place where you've 
seen a lot of success, and what opportunities does that create 
I guess is my question.
    Mr. Gerstenmaier. It--I think as the other Center Directors 
talked a little bit about, one of the unique roles of NASA is 
we have a lot of internal expertise, so we supported a lot of 
these smaller companies transferring some of our knowledge to 
them, so we helped many of the providers that you've described 
and talked about. And we're going to do a services contract 
through the Science Mission Directorate that's a sister 
directorate to mine that will look at commercial landed 
services on the Moon, and these will be small landers, less 
than 100 kilograms or so kind of landed mass, and the company 
that you described is one of the participants potentially in 
that activity.
    So we're off doing that solicitation now. That will let us 
see what the commercial sector can provide. Then once we 
understand that, when we do the more highly reliable, more 
complex human class landers which are, you know, up to 1,000 
kilograms landed or 2,000, 3,000 kilograms landed on the Moon, 
we can learn from those early activities to see where we need 
to do extra analysis, extra research to move forward. So we 
have kind of a phased program of small-class landers, mid-class 
landers, and then human-class landers, so those are three 
integrated programs that allow us to explore and see what 
commercial industry can provide, what their skills are, and 
then we only dial-in what we uniquely need to add to what the 
commercial sector can do to give us a highly reliable human 
transportation landing capability in the future.
    Mr. Lamb. Thank you very much, sir. Mr. Chairman, I yield 
back.
    Chairman Babin. Yes, sir, thank you.
    I now recognize the gentleman from Louisiana, Mr. Abraham.
    Mr. Abraham. Thank you, Mr. Chairman.
    Before I get to my questions, I certainly want to recognize 
the role that Louisiana plays in our space missions. New 
Orleans is home to the Michoud Assembly Facility where NASA is 
building the Space Launch System that Ms. Singer referenced and 
the Orion spacecraft. And I know everyone here realizes how 
critical this facility and the entire federal campus, including 
the NASA Business Development Center and the USDA National 
Finance Center, are to the federal government and to our 
mission to explore space.
    And for us in Louisiana it's a source of pride. It's a 
major job provider, so we certainly just appreciate Michoud 
being there. And I want to acknowledge the fine work being done 
there to our country and to our space exploration.
    I was looking at the bios of you on the panel. It amazes me 
on the Space Committee, either the full committee or the 
subcommittee, the intellect and the knowledge base. And you 
guys and ladies on that panel, you give us mere mortals a bad 
rep. I mean, it's like, you know, it doesn't take a rocket 
scientist--well you guys are the rocket scientists that we are 
compared to. So, you know, I do have a little bit of chip on my 
shoulder when my wife says, ``it doesn't take a rocket 
scientist to change a lightbulb.''
    Mr. Cabana, is there anything you haven't done, sir? I 
mean, I'm looking at your resume and I'm just blown away at the 
accomplishments, as anyone on the table. So just thanks for 
being here and, you know, thanks for taking care of us on the 
space and exploration frontier. We certainly want to continue 
to lead as a country, as a nation, globally. We want to 
certainly command space in every form and fashion.
    And the only question I have--and I guess it'll be to all 
of you and if you can just go down the line--I want to kind of 
pony on my good friend Mr. Lucas where we left off. What 
Congressional action do we need to mitigate the feast or famine 
that we've had in the past, better leverage the resources that 
you have available, the workforces? What do we need to do as a 
Congress to make those centers even better than you guys are? 
Mr. Gerstenmaier, I'll start with you and just go down the 
line.
    Mr. Gerstenmaier. Sure. I think it's important that we have 
consistency of purpose, right, where we kind of keep our goals 
and objectives at a higher level, and then that allows us to 
continue to keep moving progress and move forward. It's hard 
when we start a program and then we have to stop a program and 
then start another program. So if we get too specific a 
direction, it's difficult for us to implement under that. But I 
think good steady guidance, good financial support, other 
pieces are there----
    Mr. Abraham. So no C.R.'s if we can help it.
    Mr. Gerstenmaier. Yes, that would be nice if that happens. 
But we are prepared for those. But we can--but again, I think 
just consistency would be very important.
    I think we also see this as really the ultimate team sport. 
You know, all of us can contribute in our own way, and each one 
of us has our own unique strengths. And by pulling all of us 
together with our diverse backgrounds, we can do amazing 
things. And I think we need Congressional support, we need 
Administration support as well, and--but we call you part of 
the spaceflight team.
    Mr. Abraham. Well, we appreciate that.
    Mr. Geyer?
    Mr. Geyer. Yes, thank you. And--so I think it's great and 
appropriate to be held accountable for the work that we do, and 
I appreciate the opportunity to respond to that and talk about 
the work that we are doing and on the transition report 
especially about putting together a well-thought-out and 
logical plan, giving--having the opportunity to do that and 
show the rationale for the future I would say is really, really 
important.
    And as Bill said, it's working together to make these come 
together. I would say I just want to echo what you said about 
Orion. You know, we found that the welding expertise in that 
location was world-class, and they did a terrific job on Orion 
and will continue to do so.
    Mr. Abraham. Right.
    Mr. Geyer. Thanks.
    Mr. Abraham. Ms. Singer, any comments on that?
    Ms. Singer. Yes, I would second that from--Michoud Assembly 
Facility is very near and dear to my heart. I've worked 
external tank for over ten years, and it is the----
    Mr. Abraham. You're welcome to come over to the LSU side--
you understand that--from the Alabama side.
    Ms. Singer. And I would tell you, too, thank you so much 
for you all's bipartisan support. It makes a difference. When 
we have continuity of funding and continuous pressure, as Mark 
said, it's great for us to be held accountable, but it does 
make a difference in how we recruit and be able to get the next 
generation of folks that want to work on space and space 
program and exploration. Having that inspiration makes a big 
difference, too.
    Mr. Abraham. Mr. Cabana?
    Mr. Cabana. I think, as Mr. Gerstenmaier said, consistency 
in our direction, and we have that consistency in our funding. 
One of the things that--the program that we played out, it's 
sustainable and it's evolvable. It's something that doesn't 
need to be started over. It is the right path forward to allow 
us to get back in cislunar space, to get to the Moon and 
eventually on to Mars as we evolve, and having that continuity 
is going to be really important.
    I think continuing with the authorities that we have, 
especially looking at the Kennedy Space Center, what we've been 
able to do to commercialize the assets that we have through the 
Space Act Agreements, enhanced use lease, and so on is 
extremely important. And I know that our human resources folks 
are also looking at human resources initiatives that can help 
us better recruit and retain the workforce that we have, items 
such as direct hiring authority, so there are a number of 
things that can help us and we're looking at that.
    And I would also say, sir, that Senator Glenn was 77 when 
he flew his last flight, and I'm still holding out hope.
    Mr. Abraham. I think you could qualify for the physical 
right now. Thank you, Mr. Chairman.
    Chairman Babin. You're welcome. Thank you.
    I now recognize the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thank you.
    I know I'm a broken record. I know you've seen this before, 
but I will put it up there one more time because this is a goal 
I think we all want to achieve, which is to get our astronauts 
to Mars at a time when it's relatively safer for them because 
of a shorter trip, less radiation, those kinds of things.
    And so, Mr. Gerstenmaier, you and I have had this 
conversation on occasion, and so I'd just like to kind of talk 
about where we are because I think in one of the bills that we 
passed last year we asked for report about a roadmap to Mars, 
and we have yet to see that. So I know you're not surprised by 
my question, and I'd just like to see where you think we are 
and when we're going to see the report.
    And I guess there's a third piece based on what I've just 
read. Have you all decided to make it a backseat to the Moon?
    Mr. Gerstenmaier. Okay. So I think, again, the report's 
coming. The first report we needed to get done was the 
Exploration Campaign, which we were late on but you got it last 
Friday. And I--and Mars is not a backseat to the Moon. What we 
see is we need to do the activities around the Moon to really 
prepare us to go to Mars. So this Gateway spacecraft we talk 
about around the Moon, it can be moved in different orbits 
around the Moon. It also could be the basis for a Mars 
spacecraft. The ascent vehicle that we will use for the lunar 
activity, we're going to try to size that ascent vehicle that 
comes off the Moon that takes the crews from the surface of the 
Moon to Gateway. That vehicle will be sized towards a Mars-
class lander. So we're using the region around the Moon to 
build the skills to build the understanding, the technology 
that allows us to go to Mars.
    I don't think we're ready to go to Mars directly today. We 
need someplace--we need to use the space station first to build 
long-duration life-support systems. Those will start flying as 
early as this fall. There are some scheduled to fly in 
November, and that'll be really good on Station to see those 
systems come online. Then we go to the Moon, press the skills a 
little bit harder, and then we're ready to go to Mars. So I see 
the Moon----
    Mr. Perlmutter. So----
    Mr. Gerstenmaier. --as an enabler for Mars.
    Mr. Perlmutter. Good. And that--I--really was what I wanted 
to hear. I guess what I'd like to see in the report on the 
roadmap to Mars is more of a connection between what this 
steppingstone is in my opinion in going to the Moon and then 
how it relates and supports and--because I told you I'm 
agnostic on how you get to the--to Mars, just get there by 
2033. So I felt like there needs to be more of a connection 
between your activities and efforts returning to the Moon and 
developing things there.
    To change the subject just a little bit, this Gateway 
thing, I did have a constituent of mine who is very involved in 
sort of space exploration, a guy named Dr. Zubrin, who you 
know, who had some reservations about the Gateway sort of 
approach. Does that give somebody in the private arena, you 
know, a monopoly on leases or something like that? He was much 
more erudite in how he expressed his concern than I just have, 
but are you familiar with that kind of a critique?
    Mr. Gerstenmaier. We've heard some of that. One key thing 
is we're trying to develop--we call them interoperable 
standards. And what those are is we have an international 
docking standard now, which we've said--it doesn't tell you how 
to build a docking device, but if you can build to the 
standard, you can dock any spacecraft to another spacecraft. 
And we're using that now on our new vehicles.
    We're also going to set seven other standards, atmospheric 
standards, power standards, data standards, rendezvous 
proximity operations system standards, and those will allow any 
spacecraft to operate with other spacecraft, so then that 
prevents this monopoly that you described or one of the 
concerns.
    Mr. Perlmutter. Okay.
    Mr. Gerstenmaier. So by having an open architecture that 
anyone could build to, they build to these standards, it 
doesn't tell them how to build the hardware, they can be 
interoperable with our spacecraft moving forward. And we think 
that's a very powerful tool that lets us now keep everyone 
participating in these activities so there's not a one unique 
spacecraft, one unique design owned by one company. It's 
effectively built to an open standard.
    Mr. Perlmutter. Thank you. And, Ms. Singer, I'll end with 
you. So SLS, Orion, Marshall obviously plays a very big role 
there. Are you comfortable that NASA is paying attention to 
getting to Mars?
    Ms. Singer. Yes, sir. I see that as a top focus of--part of 
our ability to be sustainable and operating in deep space. The 
Space Launch System is the enabling workhorse that has to be 
there to be able not only to support Gateway but beyond Gateway 
and above. So, yes, we are getting the attention.
    Mr. Perlmutter. Okay. Thank you. Mr. Chairman, I yield 
back.
    Chairman Babin. Yes, sir. Thank you.
    I now recognize the gentleman from Florida, Mr. Dunn.
    Mr. Dunn. Thank you very much, Mr. Chairman.
    Mr. Gerstenmaier, as we ramp up the number of launches to 
Gateway, can you share with us your best estimate of the cost 
per launch? And if you need to stratify that by payload size or 
launch vehicle, please feel free.
    Mr. Gerstenmaier. Yes, if you want exact numbers----
    Mr. Dunn. No, no, just a--you know, back-of-an-envelope 
type thing.
    Mr. Gerstenmaier. Yes, if you take a look at our budget, 
we're looking at probably, I don't know, $3 billion or so per 
year, but then it's balanced across with SLS being launched 
about once per year roughly as you see in the report, but then 
that's augmented by commercial launches for other things like 
supply, fuels, other pieces, so there are several commercial 
launches there.
    So the SLS Orion system, when crew needs to be there or 
large components need to be there, you uniquely use the heavy-
lift government system. When the smaller things can come, they 
can come on other pieces. So, for example, the power propulsion 
element, it'll be launched on a commercial launch vehicle. So 
we spread that across all of them so we can get the most 
efficient launch system to take whatever unique cargo is 
needed.
    Mr. Dunn. So I was under the impression some of the 
commercial systems also are heavy launch now. My----
    Mr. Gerstenmaier. They're still on the books in terms of 
redesign. There is no system that is as far along in 
manufacture and development as the SLS. It's----
    Mr. Dunn. It might very well happen, though, over the 
course of the next four, five years----
    Mr. Gerstenmaier. Sure, and if it does, then we'll figure 
out a way we can accommodate those in our architecture so our 
architecture isn't dependent upon one launch system.
    Mr. Dunn. So Mr. Lucas asked earlier a question that really 
piqued my interest, which is how do you leverage the 
commercial--all the interested parties of the commercial side 
to get them really involved in the Gateway and the lunar 
explorations, which are in preparation for deep space 
exploration?
    Mr. Gerstenmaier. You know, I think, again, if we can show 
what we need from a NASA perspective to do this and show the 
vision, then I think industry can start figuring out ways to 
contribute and move forward in that vision. We're trying to do 
that very much in low-Earth orbit. We're starting to see now 
some companies that have not done research in space, now have 
interest in space, which is encouraging. So I think the key 
thing is we can show the vision, we can show the open 
architecture, then it's up to the companies to figure out how 
they can contribute and work with us in that area.
    We can also share our expertise with them. You know, where 
we have some unique manufacturing or processing techniques and 
things, we can share those with industry as well to help them.
    Mr. Dunn. I certainly have been approached by some 
industries like that, and I know we had here during testimony 
one day a gentleman was talking about how to do the fuel 
resupply on the Moon based on commodities he could get from the 
Moon, hydrogen and whatnot, so that--I think that's possible.
    Also for Mr. Gerstenmaier, can you confirm that NASA does 
not have plans to abandon American human presence in low-Earth 
orbit even if the details are still unclear how that--how you--
what you're going to do?
    Mr. Gerstenmaier. No, our intent is to have a continuous 
presence in low-Earth orbit, and we're working--and our 
transition plan lays out the principles for that activity and 
we're moving forward to try to implement that.
    Mr. Dunn. I thank you very much. Thank you, gentlemen, and 
also your flight controllers for joining us today. It's always 
fascinating to see NASA come in and talk to us. Thank you.
    Chairman Babin. Thank you very much.
    I now recognize the gentleman from Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Gentlemen, madam, thank you for appearing before us today. 
I'm the seventh of eight children. I have six sisters, and they 
join many ladies across the country for the last several 
decades--I would hear them occasionally say, ``If we can send 
one man to the Moon, why can't we send them all?''
    And I join my colleagues in the goal to reach Mars by 2033. 
The problem could perhaps be that much of America would like to 
send Congress to Mars right now.
    Human space exploration of course is incredibly important 
for the future of our world. I support it; this Committee 
supports it. The policies have remained relatively consistent 
across current and prior Administrations but minute differences 
concerning the planned level of lunar activity prior to going 
to Mars has hindered term planning as we sit right now.
    Before I ask my question, I'd like to thank Ms. Singer 
specifically for being here today. The Michoud Assembly 
Facility managed by the Marshall Space Flight Center has 
consistently been an impressive and vitally important facility 
for the entire State of Louisiana. I've visited the facility, 
it's an incredible experience with some of the most 
professional men and women that I've ever met in my life. So we 
certainly support the mission that we are joined here on this 
Committee.
    My question lends to the bipartisan nature of planning. I 
certainly understand that different Administrations at the 
executive level, and as the balance of power shifts in 
Congress, will enact certain policy changes, but do you feel 
that--my directors present--do you feel that if we're able to 
establish a bipartisan agreement on long-term planning for 
human space exploration, would that not be beneficial to the 
space centers you operate, the mission, and potentially reduce 
the long-run cost and just increase overall efficiency from a 
planning perspective? I'd like for my directors to respond to 
that question, please.
    Mr. Geyer. Yes, I'll start. I think you said it very well. 
A long--having a long-term plan allows us to plan, right? It 
allows us to, as Jody said, look forward to the workforce that 
we're going to need and make those choices so that when those 
different milestones happen, we have the folks we need to do 
the job. And so I think that's a really important part of the 
future.
    Ms. Singer. And yes, I would say that sustained and 
continuity in human spaceflight and exploration, which includes 
the bipartisan support, does help us because it gives us the 
ability to have a vision not only for the near term but for the 
future to come. It also helps us to be able to inspire folks. 
It helps us, economic base, as well as to inspire the next 
generation of folks that want to work on it. So yes, definitely 
having that gives us a lot of vision and excitement to be able 
to execute.
    Mr. Higgins. Yes, ma'am.
    Mr. Cabana. And I'll agree, sir. Having the consistency of 
a clearly laid out vision for the future and our implementation 
of it, the path that we're on being--having that sustainable 
and consistent is critical to our success.
    Mr. Gerstenmaier. And I would add also that it's a really 
good thing. You've just got to be careful we don't get too 
specific in the plan because then that causes us to stop and 
start. So the trick is to get it at the right level that is 
sustainable for a long duration and it doesn't get too specific 
because then that drives us to make short-term decisions, which 
I think are problematic to us.
    Mr. Higgins. Yes, sir. And of course it's important that we 
communicate the crucial nature of the job that we do together 
from this Committee through Congress and through the 
Administration so that we can have a truly bipartisan plan that 
looks into the future that can transcend politics and shifts of 
power and changes of political affiliation at the executive 
branch. And if there's a committee that can make that happen, 
Mr. Chairman, I believe this is the one.
    I thank you all for being here. I yield back.
    Chairman Babin. Thank you very much.
    And now, I'd like to recognize the gentleman from Alabama, 
Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Mr. Gerstenmaier, the controversial load-and-go procedure 
appears to expose NASA astronauts to unnecessary additional 
risk. In that vein I've got three questions. Is load-and-go an 
additional launch risk, question number one. Question number 
two: is load-and-go necessary because of performance challenges 
in getting to the International Space Station? And then 
question number three, if it's a cost-saving measure, is the 
added risk to astronauts appropriate to help save money?
    Mr. Gerstenmaier. So, again, what I think we need to do--
and we're still in the process of reviewing the exact procedure 
of where we put the propellant on versus when we have crew get 
in the vehicle, it's a function of the spacecraft design 
because you need to get the propellant in at the right time. 
The propellant needs to be at the right temperatures and 
pressures at the time of ignition of the engines, et cetera, so 
there's a balance of when that occurs. We're going to find the 
right time to put the crew on these vehicles that puts them in 
at the most--or the safest opportune time for the particular 
spacecraft that we're designing, and so we're going through 
that process right now. And I think we need to be careful how 
we do that and when we pick the time.
    In the case of SpaceX, it's interesting. If we go with the 
standard procedure they've laid out for us today, then we'll 
get to see--they're roughly flying sometimes 10 to 16 launches 
per year. We'll get to see the actual loading of that vehicle 
exactly like it's going to be when the crew is on board 16 
times per year. We think that's a significant safety advantage 
to see that operation occur repetitively 16 times per year. If 
we required a unique loading operation just for our crew when 
they're there, then you get a one-time shot per year of how you 
load the vehicle with crew there, and that may actually be more 
risky for you than it is taking the more standard procedure. So 
that's kind of what our logic is behind this. We get a chance 
to see it multiple times to make sure that it is really 
reliable. The folks that are doing the loading, the software 
that does the loading, it gets exercised multiple times per 
year, and that gives us experience with that software, it's up-
to-date, it's not a unique, one-of-a-kind thing. So we need to 
be careful we don't drive the particular loading sequence for 
this particular design to unique aspect that actually exposes 
us to more risk. And that's what the teams are doing now. 
They're going through that detailed discussion to figure out 
the right way to move forward with this with SpaceX.
    Mr. Brooks. Thank you, Mr. Gerstenmaier.
    Director Singer, the Chairman couldn't say it but I will. 
Roll Tide. Welcome to the Hill as Marshall Space Flight 
Center's Director, and congratulations. Being from the 
Tennessee Valley, you've made us all proud.
    Now, the Marshall Space Flight Center's first Director, Dr. 
Wernher von Braun, began his tenure in 1960 with a vision of 
taking humanity to the Moon. This year, as we celebrate NASA's 
60th anniversary, we are once again embarking on a mission to 
the Moon with the intent of proving the technologies that are 
needed for our next celestial achievement, taking humanity to 
Mars. As the Marshall Space Flight Center's 14th Center 
Director, what is your vision for Marshall, and what technical 
roles do you foresee as Marshall writes its future history?
    Ms. Singer. Thank you so much for that question, and thank 
you for the nice recognition.
    I would say that from my vision as the Center Director of 
Marshall Space Flight Center, it's probably very similar to the 
vision that many Center Directors have. It's to--definitely to 
deliver on our commitments and our missions and making sure 
that the assignments that we do have, we're able to execute 
them and making sure that our infrastructure is in place to do 
that.
    I think also a key part of that is strengthening our 
workforce. We have a very strong workforce that I'm very proud 
of, but investment in our workforce and making sure they remain 
strong and making sure they have the adequate training and 
resources and our ability to hire a diverse workforce is going 
to be critical and--as we execute the new missions.
    Also, a third part of that is the criticality of our 
partners. I know that many of the things that we do today gives 
us increased flexibility, agility, and effectiveness, and I 
think the education of our workforce and working with our 
partners to make sure that we continue that partnership and our 
partnerships with other centers are very critical.
    So I see that as my top three themes. I've talked about our 
expertise that we have at Marshall Space Flight Center, our 
ability to develop and integrate large systems, our deep space 
transportation activities, ascent and descent, the significant 
adventures that we're having in advanced manufacturing not only 
on SLS today but on engine parts that we're seeing that we're 
flying, and the ability to build in space, our ECLSS that we 
work on to help with life that not only has to happen on 
International Space Station but going forward in deep space, a 
lot of that is what will be key contributors.
    So to me that is what makes our future so bright and why 
I'm so excited about being at Marshall Space Flight Center 
because I think we have an opportunity to not only work on 
traveling to and through space. I think we have an ability to 
work on living and working in space, as well as understanding 
our world with our science. So I look forward to a bright 
future, and I think it's a wonderful opportunity to be at NASA.
    Mr. Brooks. Thank you, Ms. Singer.
    And, Mr. Chairman, I yield back.
    Chairman Babin. Yes, sir. Thank you very much for those 
great questions.
    I just want to--I think this wraps us up. I don't see any 
more Democrats here, and he was the last Republican, but I just 
want to thank each and every one of you. I'm proud of each one 
of your centers and the leadership that you've given us and 
also, Mr. Gerstenmaier, your leadership at where you are and 
very proud to have you folks here telling us about our space 
program because I've never felt more optimistic and more 
excited about what's happening.
    And so I want to thank each one of you. The record will 
remain open for two weeks for additional comments and written 
questions from Members. And with that, if I get my gavel out 
here, we will adjourn. Thank you.
    [Whereupon, at 3:40 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
